WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Reed Kirk McDonald

19-1171
Citibank, N.A.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Citibank, N.A.

11] I am a member of the Bar of the Supreme Court of the United States.
111 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature /s/ Cynthia Lowety-Graber
Date.

04/15/2020

(Type or print) Name

Cynthia Lowery-Graber
111 Mr.

Firm

[I] Ms.

❑ Mrs.

El Miss

Bryan Cave Leighton Paisner, LLP

Address

1700 Lincoln Street, Suite 4100

City & State
Phone

Denver, CO

303-866-0331

Lip
Email

80203

cynthia.lowery-graber@bclplaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Reed McDonald, pro se, 4059 W. Hillside Place, Littleton, CO 80123

